<html>
<title> - CLASSROOMS IN CRISIS: EXAMINING THE INAPPROPRIATE USE OF SECLUSION AND RESTRAINT PRACTICES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                  CLASSROOMS IN CRISIS: EXAMINING THE
                   INAPPROPRIATE USE OF SECLUSION AND
                          RESTRAINT PRACTICES

=======================================================================

                                HEARING

                               BEFORE THE

               SUBCOMMITTEE EARLY CHILDHOOD, ELEMENTARY,
                        AND SECONDARY EDUCATION


                         COMMITTEE ON EDUCATION
                               AND LABOR
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

           HEARING HELD IN WASHINGTON, DC, FEBRUARY 27, 2019

                               __________

                            Serial No. 116-5

                               __________

      Printed for the use of the Committee on Education and Labor
      
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]     



           Available via the World Wide Web: www.govinfo.gov
                                   or
              Committee address: https://edlabor.house.gov                   
                   
              
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-659 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e89887a88b9d9b9c808d8498c68b8785c6">[email&#160;protected]</a>                         
                    
                    
                   
                    
                    
                    
                    COMMITTEE ON EDUCATION AND LABOR

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

Susan A. Davis, California           Virginia Foxx, North Carolina,
Raul M. Grijalva, Arizona            Ranking Member
Joe Courtney, Connecticut            David P. Roe, Tennessee
Marcia L. Fudge, Ohio                Glenn Thompson, Pennsylvania
Gregorio Kilili Camacho Sablan,      Tim Walberg, Michigan
  Northern Mariana Islands           Brett Guthrie, Kentucky
Frederica S. Wilson, Florida         Bradley Byrne, Alabama
Suzanne Bonamici, Oregon             Glenn Grothman, Wisconsin
Mark Takano, California              Elise M. Stefanik, New York
Alma S. Adams, North Carolina        Rick W. Allen, Georgia
Mark DeSaulnier, California          Francis Rooney, Florida
Donald Norcross, New Jersey          Lloyd Smucker, Pennsylvania
Pramila Jayapal, Washington          Jim Banks, Indiana
Joseph D. Morelle, New York          Mark Walker, North Carolina
Susan Wild, Pennsylvania             James Comer, Kentucky
Josh Harder, California              Ben Cline, Virginia
Lucy McBath, Georgia                 Russ Fulcher, Idaho
Kim Schrier, Washington              Van Taylor, Texas
Lauren Underwood, Illinois           Steve Watkins, Kansas
Jahana Hayes, Connecticut            Ron Wright, Texas
Donna E. Shalala, Florida            Daniel Meuser, Pennsylvania
Andy Levin, Michigan*                William R. Timmons, IV, South 
Ilhan Omar, Minnesota                    Carolina
David J. Trone, Maryland             Dusty Johnson, South Dakota
Haley M. Stevens, Michigan
Susie Lee, Nevada
Lori Trahan, Massachusetts
Joaquin Castro, Texas
* Vice-Chair

                   Veronique Pluviose, Staff Director
                 Brandon Renz, Minority Staff Director
                                 ------                                

   SUBCOMMITTEE EARLY CHILDHOOD, ELEMENTARY, AND SECONDARY EDUCATION

   GREGORIO KILILI CAMACHO SABLAN, Northern Mariana Islands, Chairman

Kim Schrier, Washington              Rick W. Allen, Georgia,
Jahana Hayes, Connecticut              Ranking Member
Donna E. Shalala, Florida            Glenn ``GT'' Thompson, 
Susan A. Davis, California               Pennsylvania
Frederica S. Wilson, Florida         Glenn Grothman, Wisconsin
Mark DeSaulnier, California          Van Taylor, Texas
Joseph D. Morelle, New York          William R. Timmons, IV, South 
                                         Carolina
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on February 27, 2019................................     1

Statement of Members:
     Allen, Hon. Rick W., Ranking Member, Subcommittee Early 
      Childhood, Elementary, and Secondary Education.............     3
        Prepared statement of....................................     5
    Sablan, Hon. Gregorio Kilili Camacho, Chairman, Subcommittee 
      Early Childhood, Elementary, and Secondary Education.......     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Nowicki, Ms. Jacqueline, Director of Education Workforce and 
      Income Security, Government Accountability Office (GAO)....    34
        Prepared statement of....................................    36
    Smith, Ms. Renee, Coventry, Rhode Island.....................    29
        Prepared statement of....................................    31
    Sugai, Dr. George, PH.D., Partner, Professor and Carole J. 
      Neag Endowed Chair, Neag School of Education, University of 
      Connecticut................................................     7
        Prepared statement of....................................    10
    Sutton, Ms. Allison, M.ED, Special Education Teacher, Wichita 
      Public Schools (USD 259) President and CEO, National 
      Women's Law Center.........................................    48
        Prepared statement of....................................    50

Additional Submissions:
    Hayes, Hon. Jahana, a Representative in Congress from the 
      State of Connecticut:
        Letter dated February 25, 2019, from American Civil 
          Liberties Union (ACLI).................................    82
        Letter dated February 25, 2019, from The Council of 
          Parent Attorneys and Advocates, Inc. (COPAA)...........    86
        Letter dated February 25, 2019, from the National Council 
          on Disability..........................................    88
        Prepared statement from The Arc..........................    90
        Letter dated February 26, 2019, from the Council for 
          Exceptional Children...................................    92
        Letter dated February 26, 2019, from the National 
          Association of School Psychologists (NASP).............    97
        Letter dated February 25, 2019, from the National Center 
          for Special Education I charter Schools................   100
        Prepared statement from the National Disability Rights 
          Network................................................   102
        Letter dated February 27, 2019, from the National 
          Disability Rights Network..............................   106
    Morelle, Hon. Joseph D., a Representative in Congress from 
      the State of New York:
        Letter dated February 25, 2019, from Consortium For 
          Citizens With Disabilities.............................    68
        Letter dated February 25, 2019, from The Alliance to 
          Prevent Restraint, Aversive Interventions and 
          Seclusions (APRAIS)....................................    71
    Shalala, Hon. Donna E., a Representative in Congress from the 
      State of Florida:
        Prepared statement from the Autism Society of America....    58
    Questions submitted for the record by:
        Levin, Hon. Andy., a Representative in Congress from the 
          State of Michigan 

        Chairman Sablan 


        Wilson, Hon. Frederica S., a Representative in Congress 
          from the State of Florida 



    Responses to questions submitted for the record by:
        Ms. Nowicki..............................................   119
        Ms. Smith................................................   121
        Dr. Sugai................................................   124
        Ms. Sutton...............................................   142

 
                  CLASSROOMS IN CRISIS: EXAMINING THE
                   INAPPROPRIATE USE OF SECLUSION AND
                          RESTRAINT PRACTICES

                              ----------                              


                      Wednesday, February 27, 2019

                        House of Representatives

               Committee on Education and the Workforce,

              Subcommittee on Early Childhood, Elementary,

                        and Secondary Education

                            Washington, DC.

                              ----------                              

    The subcommittee met, pursuant to notice, at 10:02 a.m., in 
room 2175, Rayburn House Office Building, Hon. Gregorio Kilili 
Camacho Sablan (chairman of the subcommittee) presiding.
    Present: Representatives Sablan, Schrier, Hayes, Shalala, 
Davis, Morelle, Allen, Grothman, Taylor, and Timmons.
    Also present: Representatives Beyer, Lee, Bonamici, Levin, 
and Foxx.
    Staff present: Tylease Alli, Chief Clerk; Nekea Brown, 
Deputy Clerk; Ilana Brunner, General Counsel Health and Labor; 
Christian Haines, General Counsel Education; Ariel Jona, Staff 
Assistant; Kimberly Knackstedt, Disability Policy Advisor; 
Stephanie Lalle, Deputy Communications Director; Andre Lindsay, 
Staff Assistant; Veronique Pluviose, Staff Director; Banyon 
Vassar, Deputy Director of Information Technology; Cyrus Artz, 
Minority Parlamentarian, Courtney Butcher, Minority Coalitions 
and Member Services Coordinator; Bridget Handy, Minority 
Legislative Assistant; Blake Johnson, Minority Staff Assistant; 
Amy Raaf Jones, Minority Director of Education and Human 
Resources Policy; Hannah Matesic, Minority Legislative 
Operations Manager; Kelley McNabb, Minority Communications 
Director; Jake Middlebrooks, Minority Professional Staff 
Member; Brandon Renz, Minority Staff Director; Mandy 
Schaumburg, Minority Chief Counsel and Deputy Director of 
Education Policy; Meredith Schellin, Minority Deputy Press 
Secretary and Digital Advisor; and Brad Thomas, Minority Senior 
Education Policy Advisor.
    Chairman Sablan. Good morning. The Subcommittee on Early 
Childhood, Elementary, and Secondary Education will come to 
order.
    Good morning, and welcome everyone. I know that quorum is 
present. I ask unanimous consent that Mr. Beyer of Virginia, 
Ms. Bonamici of Oregon, Ms. Lee of Nevada, and Mr. Levin of 
Michigan be permitted to participate in today's hearing, with 
the understanding that their questions will come only after all 
have completed with theirs.
    So today we are here to discuss the Federal Government's 
role in protecting the health and safety of students and school 
staff. Every student in our country, from Congressman Morelle's 
district in New York to my district in the Northern Marianas, 
and all points in between, deserve a healthy school climate 
where they can learn and grow. And every educator deserves to 
feel safe in the classroom.
    Unfortunately, we know that this is too often not the case. 
The widespread use of dangerous restraint and seclusion 
discipline practices are undermining school climate and putting 
students and school staff at risk. A growing number of research 
shows that each year hundreds of thousands of students 
exercise--experience restraint or seclusion. In a 2015-2016 
school alone 122,000 students were physically restrained, 
mechanically restrained, or secluded.
    While we do not have data on injuries to school staff, 
anecdotal evidence suggests that there are untold numbers of 
educators who are also physically and emotionally harmed by the 
use of seclusion and restraint. Without proper training 
teachers conducting restraint can further escalate the 
situation and unintentionally inflict costly injury on 
themselves, which can require them to seek physical 
rehabilitation.
    All of these scenarios require resources and time that 
could be otherwise spent in the classroom teaching students. 
And while Federal law restricts the use of these practices for 
children in hospitals and treatment facilities to emergency 
circumstances, Congress has never addressed seclusion or 
restraint for students in our Nation's classrooms.
    This is particularly harmful because while more than 30 
states, including the Northern Mariana Islands, have enacted 
policies to limit classroom seclusion and restraint practices, 
these policies vary widely and at least 11 states have no 
policy at all.
    While the Northern Marianas public school system Congress 
Well Congress has a responsibility to protect students and 
school staff in the classroom, while also helping school 
districts build healthy school climates. Thus far, we have 
failed to do our part. Today's hearing is an important step 
toward ensuring that all students and educators in all states 
and territories spend their days in safe and healthy schools.
    I look forward to our discussion today and yield to the 
Ranking Member, Mr. Allen, for purposes of making an opening 
statement.
    [The information referred to follows:]

 Prepared Statement of Hon. Gregorio Kilili Camacho Sablan, Chairman, 
   Subcommittee Early Childhood, Elementary, and Secondary Education

    Today, we are here to discuss the Federal Government's role in 
protecting the health and safety of students and school staff. Every 
student in our country, from Congressman Morelle's district in New York 
to my district in the Northern Marianas and all points in between, 
deserves a healthy school climate where they can learn and grow. And 
every educator deserves to feel safe in the classroom.
    Unfortunately, we know that this is too often not the case.
    The widespread use of dangerous restraint and seclusion discipline 
practices are undermining school climate and putting students and 
school staff at risk.
    A growing body of research shows that, each year, hundreds of 
thousands of students experience restraint or seclusion. In the 2015-
2016 school year alone, 122,000 students were physically restrained, 
mechanically restrained, or secluded.
    While these practices were originally intended as a last-resort to 
protect students and staff in cases of emergency, they now play a more 
central role in school discipline. This has had serious consequences.
    Students have described being tied to chairs, having their mouths 
taped shut, and being locked in small dark spaces. In rare cases, 
restraint has resulted in students' death. Just last year in 
California, a 13-year-old boy with autism was held in a face-down 
restraint for so long that he suffocated to death.
    The disparities that exist within school discipline broadly also 
appear in the application of seclusion and restraint. Students of color 
and students with disabilities are more likely to experience these 
practices than their peers. Recent data show that 70,000 students with 
disabilities were restrained or secluded in a single school year. 
Though Black students make up only 15 percent of school enrollment, 
they account for nearly a third of these cases.
    While we do not have data on injuries to school staff, anecdotal 
evidence suggests there are an untold number of educators who are also 
physically and emotionally harmed by the use of seclusion and 
restraint. Without proper training, teachers conducting restraint can 
further escalate the situation and unintentionally inflict costly 
injury on themselves, which can require them to seek physical 
rehabilitation. All of these scenarios require resources and time that 
could be otherwise spent in the classroom teaching students.
    And while Federal law restricts the use of these practices for 
children in hospitals and treatment facilities to emergency 
circumstances, Congress has never addressed seclusion or restraint for 
students in our nation's classrooms.
    This is particularly harmful because, while more than 30 States 
including the Northern Marianas have enacted policies to limit 
classroom seclusion and restraint practices, these policies vary widely 
and at least 11 States have no policy at all. While the Northern 
Marianas Public School System requires the principal or his/her 
designee to submit a detailed written report with justifications 
informing parents or guardians following the use of restraint or 
seclusion, in fact, in many States, parents aren't even notified if 
their child is restrained or placed in seclusion.
    This is simply unacceptable.

    That is why, to address this classroom crisis, we have introduced 
in past years the Keeping All Students Safe Act.

    This bill, which I cosponsored, would keep students safe from 
seclusion and restraint practices by:
    Making it illegal for any federally supported school to seclude a 
child,
    Limiting schools to using physical restraint on a child only when 
it is necessary to protect other students and staff, and
    Better equipping school personnel with evidence-based strategies to 
proactively address challenging behavior.
    Congress has a responsibility to protect students and school staff 
in the classroom, while also helping school districts build healthy 
school climates. Thus far, we have failed to do our part. Today's 
hearing is an important step toward ensuring that all students and 
educators--in all states and territories--spend their days in safe and 
healthy schools.
    I look forward to our discussion today and yield to the Ranking 
Member, Mr. Allen.
                                 ______
                                 
    Mr. Allen. Thank you, Chairman, for yielding. If you ask 
any parent, grandparent, teacher, or volunteer who has been 
entrusted with caring for more than one child at a time--and I 
have 13 grandchildren, so I can certainly attest to this--they 
will tell you that every child is uniquely created. They will 
also tell you that uniqueness can sometimes present many 
challenges, especially when it comes to maintaining a sense of 
order and safety in a classroom.
    When an authority figure in a classroom has to take 
measures to keep order and safety, several things are happening 
at once. They are dealing with the child at the center of the 
disruption in a very personal way and the other children 
watching are learning lessons about leadership and compassion 
that they often don't realize until later in life. In the best 
of situations the teacher has to make an in the moment judgment 
called to address the disruptive of potentially disruptive 
situation in a way that protects everyone in the room.
    And as we will see today, sometimes they get it very wrong. 
In business we talk about how a one size fits all approach just 
doesn't work. This is even more true when it comes to children. 
This committee has worked hard in a largely bipartisan way over 
the past several years to listen more carefully and defer 
whenever possible to the people who have been called to educate 
the children. They know better than we ever will.
    A most recent example of this is the Every Student Succeeds 
Act. This committee made it clear when finishing our work on 
this law that we expected each state to articulate how it will 
support and provide resources to school districts to reduce 
techniques, strategies, interventions, and policies that 
compromise the health and safety of students, such as the 
seclusion and restraint.
    Some 44 states have laws or policies on the books governing 
the safe and appropriate use of seclusion and restraint in the 
classroom, with an additional three states providing guidance 
to school districts on how to properly use these techniques 
when necessary.
    Finding new, better ways to address behavioral problems in 
the classroom requires states to engage thoughtfully and 
meaningfully with parents, local stakeholders, disability 
advocates, school safety experts, and members of the community 
to ensure that students are safe and local needs are met. We 
are certainly united in the opinion that improper seclusion and 
restraint practices shouldn't have a place in education moving 
forward.
    Our good intentions do not change the fact that the policy 
details matter.
    Every community is different. A Federal one size fits all 
mandate would interfere with the important work that states, 
the Department of Education, and the Department of Justice are 
already doing on this issue.
    We also need to be reasonable in our expectations. None of 
us can be in every classroom and we can probably never know the 
specifics, or even the larger context, in which every incident 
has occurred.
    Those are just some of the reasons those of us in this room 
should be very careful in assuming we can draft additional 
legislation to deal with this issue.
    I am grateful to today's witnesses for making the time to 
be here, to share your experience and expertise on this 
emotional and difficult issue. I am eager to hear how we have 
come in moving away from problematic discipline practices while 
simultaneously protecting educators' ability to respond 
swiftly, effectively, and safely in rapidly changing 
circumstances to ensure the safety of all students and 
personnel.
    And I yield back.
    [The information referred to follows:]

Prepared Statement of Hon. Rick W. Allen, Ranking Member, Subcommittee 
          Early Childhood, Elementary, and Secondary Education

    Thank you for yielding.
    Ask any parent, grandparent, teacher, or volunteer who has been 
entrusted with caring for more than one child at a time, and they will 
tell you that every child is created to be unique. They'll also tell 
you that uniqueness can sometimes present challenges, especially when 
it comes to maintaining a sense of order and safety in a classroom.
    When an authority figure in the classroom has to take measures to 
keep order and safety, several things are happening at once. They're 
dealing with the child at the center of the disruption in a very 
personal way. And the other children watching are learning lessons 
about leadership and compassion that they often don't realize until 
later. In the best of situations, the teacher has to make an in-the-
moment judgment call to address the disruptive or potentially 
disruptive situation in a way that protects everyone in the room. And 
as we'll see today, sometimes, they get it very wrong.
    In business, we talk about how a one-size-fits-all approach just 
doesn't work. This is even more true when it comes to children. This 
committee has worked hard, in a largely bipartisan way, over the past 
several years to listen more carefully and defer wherever possible to 
the people who have been called to educate the children they know 
better than we ever will.
    The most recent example of this is the Every Student Succeeds Act. 
This Committee made it clear when finishing our work on that law that 
we expected each State to articulate how it will support and provide 
resources to school districts to ``reduce techniques, strategies, 
interventions, and policies that compromise the health and safety of 
students, such as seclusion and restraint.''
    Some 44 States have laws or policies on the books governing the 
safe and appropriate use of seclusion and restraint in the classroom, 
with an additional three States providing guidance to school districts 
on how to properly use these techniques when necessary.
    Finding new, better ways to address behavioral problems in the 
classroom requires States to engage thoughtfully and meaningfully with 
parents, local stakeholders, disability advocates, school safety 
experts, and members of the community to ensure that students are safe 
and local needs are met.
    We are certainly united in the opinion that improper seclusion and 
restraint practices shouldn't have a place in education moving forward. 
Our good intentions do not change the fact that the policy details 
matter, every community is different, and a Federal one-size-fits-all 
mandate would interfere with the important work that States, the 
Department of Education, and the Department of Justice are already 
doing on this issue.
    We also need to be reasonable in our expectations. None of us can 
be in every classroom, and we can probably never know the specifics, or 
even the larger context, in which every incident has occurred. Those 
are just some of the reasons those of us in this room should be very 
careful in assuming we can draft additional legislation on this issue.
    I'm grateful to today's witnesses for making the time to be here 
today to share your experience and expertise on this emotional and 
difficult issue. I am eager to hear how far we have come in moving away 
from problematic discipline practices while simultaneously protecting 
educators' ability to respond swiftly, effectively, and safely in 
rapidly changing circumstances to ensure the safety of all students and 
personnel.
                                 ______
                                 
    Ms. Hayes. [Presiding] Without objection, all of the 
members who wish to insert written statements into the record 
may do so by submitting them to the committee clerk 
electronically by Microsoft Word format by 5 p.m. on March 6.
    I will now introduce our witnesses.
    Dr. George Sugai is professor and Carole J. Neag Endowed 
Chair in the Neag School of Education Department of Educational 
Psychology at the University of Connecticut.
    Over the last 40 years his research and practice interests 
include a school wide positive behavior support, behavior 
disorders, applied behavioral analysis, and classroom and 
behavior management and school discipline.
    He is a research scientist at the Center on Behavioral 
Education and Research at UConn and has been co-director of the 
OSCP National Technical Assistance Center on Positive 
Behavioral Interventions and Supports for the last 20 years.
    Welcome, Dr. Sugai.
    Mrs. Renee Smith is from Coventry, Rhode Island. She 
graduated from Rhode Island College with a BS in computer 
information systems and works for a technology company as a web 
project manager. She and her husband have two boys, Dillon, who 
is eight, and he is the subject of her testimony, and Connor.
    Mrs. Smith is a strong advocate for her son Dillon since he 
started having difficulties at age three. She has advocated for 
support in school and eventually a move to a healthier school 
environment that uses school wide positive behavior 
interventions and support in which he is now thriving.
    Thank you, Mrs. Smith, for being here.
    Mrs. Jacqueline Nowicki is a director in the Education, 
Workforce, and Income Security Team at the U.S. Government 
Accountability Office in Boston. Ms. Nowicki joined GAO in 
1998. Her current portfolio covers a wide range of education 
issues, including special education services and funding, 
educational outcomes for children, data privacy, and school 
choice. Prior to joining GAO Ms. Nowicki worked in private 
sector consulting, leading projects on education, work force 
development, and social policy issues for State and local 
government clients, and served as senior fiscal analyst at the 
Pennsylvania Department of Revenue.
    She earned a master's degree in public policy from the 
University School of Maryland School of Public Affairs and a 
bachelor's degree in finance from Lehigh University.
    Welcome, Ms. Nowicki.
    And, finally, Ms. Allison Sutton is a special education 
teacher from Wichita, Kansas. She has been teaching for 6 
years. Ms. Sutton began teaching in a middle school and is now 
in an elementary school. She primarily supports students with 
autism. In addition to supporting students she manages two to 
four paraprofessionals.
    After teaching for 3 years she entered a master's program 
at Benedictine College to further her knowledge about 
behavioral supports and advance her students' successes based 
on their individualized needs.
    We appreciate all of the witnesses for being here today and 
I look forward to your testimony.
    Let me remind the witnesses that we have read your written 
Statements and they will appear in full in the hearing record. 
Pursuant to committee rule 7D and committee practice, each of 
you is asked to limit your oral presentation to a 5 minute 
summary of your written Statement.
    Let me remind the witnesses that pursuant to Title 18 of 
the U.S. Code Section 1001 it is illegal to knowingly and 
willfully falsify any testimony, representation, writing, 
document, or material fact presented to Congress, or otherwise 
conceal or cover up a material fact.
    Before you begin your testimony, please remember to press 
the button on the microphone in front of you so that it will 
turn on and the members can hear you. As you begin to speak the 
light in front of you will turn green. After 4 minutes the 
light will turn yellow to signal that you have 1 minute 
remaining. When the light turns red your 5 minutes have expired 
and we ask you to please wrap up.
    I feel like standardized test directions.
    We will let the entire panel make their presentations 
before we move to member questions. When answering a question 
please remember once again to turn your microphone on.
    I will first recognize Dr. Sugai.

STATEMENT OF GEORGE SUGAI, PH.D., PROFESSOR AND CAROLE J. NEAG 
    ENDOWED CHAIR, NEAG SCHOOL OF EDUCATION, UNIVERSITY OF 
                          CONNECTICUT

    Dr. Sugai. Good morning. And thank you to the committee for 
this opportunity and the invitation to present a little bit of 
information about--to speak in favor of the Keeping All 
Students Safe Act and specifically to prohibit and prevent 
seclusion and restraint and to prevent and reduce the use of 
physical restraint in schools.
    I applaud your interest in this Act and its important 
benefits to children and adults with behavior and mental health 
challenges, their families, and those educators and other 
professionals who support those individuals for their improved 
quality of life.
    Over the last 20 years, with the support of the U.S. 
Department of Education, I have been in the fortunate position 
of being able to develop a framework called Positive Behavioral 
Interventions and Supports, and I will reflect a little bit 
upon that as part of my comments.
    I refer you to the technical assistance website for PBIS at 
PBIS.org for more in depth information. And, as mentioned, I 
have also submitted a more in depth written statement for you 
to look at.
    I also want to ask you to please reflect back on some of 
the other testimonies that have been presented in the past, 
because there is some great information about this particular 
issue that has not gone away and will continue to be in front 
of us. So I encourage you to look at those.
    I also encourage you to look at many of the position 
statements that have been provided by professional 
organizations who have the same concern about supporting kids 
and families that have issues around restraint and seclusion. 
And they have done an excellent job of summarizing the 
situation.
    In the remaining portion of my time what I would like to be 
able to do is emphasize four messages. The first message is 
that every student and educator has the right to a safe, 
respectful, effective, and constructive learning environment, 
especially students who are high risk for developing 
challenging behavior or have histories of such behavior.
    The second thing I would like to communicate is that 
restraint and seclusion is not a therapeutic treatment, 
intervention, or practice.
    Third main message is that effective, empirically 
supported, relevant tools, practices and systems are available 
to achieving safe, respectable, constructive teaching and 
learning environments. And some of the other witnesses will 
reflect upon those.
    And, fourth, efforts like this Act are needed at the 
Federal level to increase and maintain our focus on ensuring 
that we have the motivation, capacity, and opportunity to 
protect all children from harm at the classroom, school, 
district, and state levels.
    So in support of those four messages I would like to 
highlight a couple of considerations. First is that restraint 
and seclusion, as I mentioned, is not a constructive treatment, 
intervention, or therapy. The evidence is clear that students 
who experience restraint and seclusion do not learn proactive 
skills, they do not develop or maintain positive relationships 
with others, they do not enhance their capacity to function in 
more normalized environments, and do not restore environments 
and relationships with others.
    Second, restraint and seclusion may be required for a small 
number of crisis emergency situations where the potential for 
students to harm self or others is imminent. Restraint and 
seclusion should never be used as a means of enforcing rules 
violations, assigning punishment, or forcing compliance.
    Third, challenging behavior does not occur in a vacuum, it 
occurs in a social context and interactions with others, and 
typically is at the end of an interaction chain. And that is an 
important message to remember.
    Fourth, students who are high risk for developing 
challenging behavior or have such histories must be provided 
preventative and constructive supports. Having reactive 
procedures in place is a good thing, but it is important to be 
thinking about how do we anticipate these in the future.
    Fifth, school district and state leaders must provide 
multi-tiered organizational policy and procedural supports, 
like PBIS, for example, that enable educators to be effective 
in preventing and responding to problem behaviors, including 
restraint and seclusion.
    Sixth, educators, family, community members, other 
professionals must have opportunities to develop high levels of 
implementation fluency in the use of effective behavior support 
practices for all students, but especially students who are 
high risk for challenging behavior, and again that may have 
those histories.
    And, finally, the challenge is formidable, but achievable I 
believe. However, efforts thus far have been slow and variable 
with respect to sustained and scaled policy, funding, and 
implementation and impact. The Act, therefore, is important, 
because we must acknowledge the clear and strong messages 
expressed by professional organizations, research, and 
community and family advocates. We must provide informed and 
effective guidance and protections in response to the 
inappropriate use of restraint and seclusion and the potential 
harm that is associated with them. We must provide minimum 
criteria or benchmarks to motivate, focus, and evaluate 
improvement efforts, and we must encourage increased attention 
to the prevention aspects of supporting the social, emotional, 
academic, and behavioral development of all students, but 
especially students who might be presenting challenges.
    So to conclude, I would like to applaud and encourage the 
efforts of the subcommittee in their efforts to prohibit the 
inappropriate use of restraint and seclusion. And I hope my 
comments give support and substance to this effort. It gives 
hope to students, educators, family, and community members, and 
other care professionals who are concerned about promoting 
student social, emotional, academic, behavioral development; 
preventing harm; and promote the use of preventative positive 
tiered systems of support as a framework for action.
    I appreciate this opportunity to testify in favor of the 
Act and I look forward to further discussing your questions and 
comments. Thank you.
    [The statement of Mr. Sugai follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Hayes. Ms. Smith.

        STATEMENT OF RENEE SMITH, COVENTRY, RHODE ISLAND

    Ms. Smith. Good morning, Chairwoman Hayes, Ranking Member 
Allen, and members of the Committee on Education and Labor. 
Thank you for the opportunity to share my family's story.
    Dillon is 8 years old; this is a picture of him. He is not 
here in person because he is still traumatized by what happened 
to him in his old school, and we worry that reliving his 
experience here would set him back.
    Let me start by giving you a little background on Dillon. 
When he was about 2 years old Erik and I started to suspect 
that Dillon's lack of self-regulation and aggression might 
indicate he had a disability. It wasn't until he was nearly 5 
years old when we received an official diagnosis of Autism 
Spectrum Disorder. After Dillon was expelled from a private 
pre-K program we put him in a local public school to finish out 
the year. His new pre-K class provided positive supports and a 
short school day and Dillon did really well there.
    After Dillon began kindergarten, we noticed he was having 
difficulty with transitions, frequent meltdowns, and shutdown 
behavior in school. Dillon is a smart child, so we never 
worried about his academics, we worried about his ability--
sorry--to function in a classroom environment without any 
supports. Despite the Autism diagnosis and Dillon's difficulty 
functioning in the classroom environment we fought for over a 
year for a 504 plan and then an IEP. Positive reinforcement was 
made as a part of the initial IEP, but it was not enforced 
until a year--a full year later.
    I began to receive phone calls to pick him up early from 
school. Next I received calls that 911 was contacted and I 
needed to pick him up before the ambulance.
    This continued to occur several times a month, sometimes 
weekly.
    As Dillon began first grade, he was enrolled in a program 
for children with Autism Spectrum Disorder [ASD] in the same 
school. The program included some supportive features, like 
extra breaks, but it also contained a walled-off area in the 
middle of the classroom for children to calm down. This area 
has walls that are about four or five feet high, and is padded 
on three and a half sides with an opening that could be covered 
to keep kids from leaving the space.
    After being dragged into the room several times a week, 
Dillon increasingly refused to do his school work. His work 
avoidance, we now know, was in direct reaction to the restraint 
and seclusion he was experiencing. With this a shared space, 
other students were present for Dillon's meltdowns and 
shutdowns. Dillon was aware of the other students and added to 
the trauma. The more he was restrained and secluded the less he 
was interested in school work, which resulted in more restraint 
and seclusion, a constant downward spiral.
    It broke my heart when Dillon told us that he no longer 
trusted any of the adults in that school.
    During all these incidents we rarely received verbal 
notification of restraint being used and never received timely 
written notification. Noncompliance aggression meltdowns are 
all a form of communication. Dillon was trying to communicate 
the strategies used were not working for him and not allowing 
him to develop coping skill for the future.
    During one IEP meeting in first grade Dillon's teacher 
canceled our parent-teacher conference because she didn't have 
any grades for him and rarely saw him in the classroom. A week 
later 911 was called and resulted in a police officer 
threatening our 6-year-old son, at the time, that if he didn't 
compose himself, dress, and leave with Erik, Dillon would be 
forcibly removed from the school in handcuffs naked. Dillon has 
taken his clothes off in this space as a clear act of despair 
and frustration that children with Autism sometimes exhibit as 
a way to communicate their feelings. Eventually he regained 
composure and left with my husband. The same day Erik informed 
the assistant special education director they had failed our 
son and we would be seeking outside placement.
    Within a week we agreed on a in-district school transfer. 
We gladly agreed to transfer him from a school attended mostly 
by children from an upper income family to one that serves 
largely low income students and receives Title I funding in 
order to find the right fit. Within only 2 weeks of the new 
placement Dillon was in a regular ed classroom 100 percent of 
the time with supports. The new school's behavior program 
allows kids to float between a special education classroom and 
a regular education classroom. There are several cool down 
spaces and one open space in the school behaviorist's office. 
The entire school participates in the Positive Behavior 
Intervention and Supports program and all students and staff 
all staff receive special training to focus on behavior.
    Teachers provide positive reinforcement in their classroom, 
one-to-one with students. They use creative fun and an age 
appropriate rewards system. For example, ``paw bucks'' is like 
Monopoly money that kids get when they are observed the major 
principles of the school culture, and they can be exchanged 
every month for picks out of a treasure box.
    Another example is a jar of marbles. Every time Dillon did 
something expected or transitioned well he would place a marble 
in the jar, one or more marbles in the jar, and once it was 
full he could pick from the chest.
    Fortunately, because of the positive behavioral approaches 
that this school uses I can close my testimony on a positive 
note. Dillon is doing very well with the proper supports. He 
has blossomed as a student. He now earns at grade or above 
grade level in every subject. He loves math. He enjoys school 
and talks about it regularly.
    I urge the committee to help the hundreds and thousands of 
kids like Dillon each year who experience the trauma of 
restraint and seclusion by working to end these unnecessary 
practices. Thank you.
    [The statement of Ms. Smith follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Hayes. Thank you, Ms. Smith. And please don't be 
nervous here today. You are Dillon's voice.
    Ms. Nowicki. Did I say that right?
    Ms. Nowicki. Nowicki. Thank you.
    Ms. Hayes. Nowicki.

    STATEMENT OF JACQUELINE NOWICKI, DIRECTOR OF EDUCATION 
WORKFORCE AND INCOME SECURITY, GOVERNMENT ACCOUNTABILITY OFFICE 
                             (GAO)


    Ms. Nowicki. No worries. Good morning and thank you for 
inviting me here today to discuss restraint and seclusion in 
public schools.
    As you probably know, education has issued guidance stating 
that restraint and seclusion should never be used except when a 
child's behavior poses imminent danger of serious physical harm 
to self or others. And while its use in schools nationwide is 
very rare, we are all aware of tragic examples of misuse that 
sadden our hearts.
    We had issued a number of reports over several years 
analyzing data from the Department of Education's Civil rights 
Data Collection, or the CRDC. All public schools in the Nation 
are required to report data for the CRDC. We also recently 
began work in response to a congressional mandate, looking at 
concerns of misreporting of restraint and seclusion data.
    My statement today will focus on how education collects 
data on restraint and seclusion, what this data tells us, and 
then Federal response to the inappropriate use of restraint and 
seclusion.
    Regarding education's data, education began collecting data 
in school year 2009 and has since published four waves of that 
data, the most recent being for school year 2015-16. The CRDC 
collects information on physical and mechanic restraint as well 
as seclusion. Education defines these terms in the CRDC 
instructions and schools and districts are to use them when 
reporting their data. The CRDC also collects information on 
students' race, gender, and disability status and school type, 
which allows us to determine the demographic characteristics of 
students being restrained and secluded and where it is 
happening.
    Public schools and districts self-report their data and 
districts are to certify the accuracy of the data submitted by 
schools. However, because these data are self-reported there is 
potential for misreporting. Education has put in place quality 
control mechanisms to attempt to reduce misreporting in the 
CRDC. We at GAO use this data in our work only after 
determining that it is sufficiently reliable in the context of 
each particular study.
    Regarding what the CRDC data tell us, nationally the data 
show that the use of restraint and seclusion is very rare. For 
example, about 61,000 students were physically restrained in 
2013-14. That is about 0.1 percent of all public school 
students. Mechanical restraint and seclusion were even less 
common. These data also show that students with disabilities 
were particularly represented. For example, students with 
disabilities represented less than 12 percent of all public 
school students, but accounted for about 75 percent of students 
physically restrained and nearly 60 percent of students 
secluded. In addition, boys were consistently restrained or 
secluded at higher rates than girls.
    Regarding the Federal response, in recent years the 
Departments of Education and Health and Human Services have 
made available on their websites guidance and resources on 
restraint and seclusion and behavioral supports. For example, 
in 2016 Education informed school districts about how the use 
of restraint and seclusion may result in unlawful 
discrimination against students with disabilities. Its 2012 
restraint and seclusion resource document States that restraint 
or seclusion should not be used as a routine school safety 
measure or as strategies to address instructional problems or 
inappropriate behavior, and also outlines principles for school 
districts to consider when developing policies around restraint 
and seclusion. For example, it says these policies should apply 
to all children, not just children with disabilities. It also 
States that repeated use of restraint and seclusion for an 
individual child, multiple uses within that same classroom, or 
multiple uses by the same individual should trigger a review 
and potentially a revision of strategies in place to address 
behavior issues.
    Education has also encouraged the use of positive 
behavioral interventions and supports, known as PBIS, as 
evidence based alternatives to restraint and seclusion. It 
funds the PBIS Technical Assistance Center, which we heard a 
little about from Dr. Sugai. According to Education, over 
25,000 schools have implemented PBIS. HHS funds a Technical 
Assistance Center that helps schools eliminate the use of 
restraint and seclusion and increase knowledge and awareness of 
trauma informed approaches to addressing behavioral issues.
    Last month Education announced a new initiative to address 
the inappropriate use of restraint and seclusion in schools. 
The Office of Civil Rights and the Office of Special Education 
and Rehabilitation will oversee this effort. OCR plans to 
conduct compliance reviews focused on the inappropriate use of 
restraint and seclusion on children with disabilities and help 
schools correct noncompliance. OCR also plans to conduct data 
quality reviews and help districts improve their CRDC data 
reporting. These Offices also expect to provide technical 
assistance to districts to understand how Federal laws, such as 
IDEA and Title II of the ADA should inform restraint and 
seclusion policies.
    In closing, what the national data tell us is that while 
restraint and seclusion is very rare, the students most 
affected are among the Nation's most vulnerable. What these 
data alone don't tell us is why this happens or the extent to 
which restraint and seclusion is being used inappropriately. We 
are hopeful that our new work on seclusion and restraint, as 
well as Education's new initiative, will help shed light on 
these important issues.
    This completes my prepared remarks. I would be pleased to 
answer any questions you may have.
    [The statement of Ms. Nowicki follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Hayes. Thank you, Ms. Nowicki. Ms. Sutton.
    Your microphone is off.

 STATEMENT OF ALLISON SUTTON, M.ED, SPECIAL EDUCATION TEACHER, 
                WICHITA PUBLIC SCHOOLS (USD 259)


    Ms. Sutton. It does not work.
    As you said this morning regarding the critical issue of 
restraint and seclusion in our classrooms.
    I graduated with my undergraduate degree in 2013 and began 
teaching that August. I was assigned 13 middle schoolers with 
autism. Today, it is hard for me to think back and recall the 
how exhausting and brutal that first year was. I was 
unprepared; I didn't have sufficient resources and support was 
limited at best. I was hired to start a program for students 
with autism at my school. As a result, the expectations were 
not widely understood among school staff, nor were staff able 
to offer tangible solutions to help me with behavioral 
situations I encountered in the classroom.
    During that first year I was using restraints at a high 
rate without the necessary training to do so. After extreme 
behaviors were occurring with regularity in my classroom I was 
told that I was supposed to be Crisis Prevention Institution 
(CPI) certified.
    I attended my first CPI training in October 2013. While 
this training is a good resource, only attending an initial 
full day training and then a half day refresher training in the 
following years, is not sufficient. Additionally, I typically 
only see special education teachers and paraprofessionals in 
attendance. In my opinion, it would be beneficial to have all 
staff on the same page when working with a student and trying 
to de-escalate varying circumstances. Nor should this be the 
only training that school personnel receive. In addition to CPI 
staff should receive training on behavior management, de-
escalation techniques, conducting functional behavioral 
assessments, and writing behavior plans.
    It became abundantly clear to me that if I wanted my 
students to be successful I needed more strategies and tools, 
such as positive behavioral interventions and supports, visual 
supports, prompting hierarchies, how to identify reinforcement, 
behavior data collection, what to do with the behavior data 
after it is collected, and tools for identifying interventions 
to implement based on individual behaviors and needs. Once I 
started acquiring this knowledge and implementing it in my 
classroom, I have seen a drastic decrease in seclusion and 
restraint.
    In order to get the support and training I needed for my 
students to be successful in the classroom, I actively sought 
out opportunities to gain those tools and strategies described 
above. I first attended a conference centered on individuals 
with autism. This proved to be very helpful and I was able to 
gain insight into my students and also able to build critical 
connections in the community.
    Three years into teaching I decided to get my masters in 
low incidence special education. This again helped me to gather 
strategies to immediately start implementing in my classroom. 
In my master's program I was able to gain both teaching and 
behavioral tools, but my biggest take away has been the need to 
build relationships with all stakeholders for each individual 
child. While this may look differently for each student, the 
necessity for honest, consistent, and valuable communication 
holds true for every stakeholder.
    Also, I recently attended and presented at the Council for 
Exceptional Children Conference. This conference allowed me the 
chance to attend multiple sessions based on my own experiences 
and interests and learn from others and take ideas back to my 
class. It is vital for me to build relationships with others 
who understand my day to day, who can offer advice, feedback, 
and even praise based on their own knowledge and understanding.
    I do want to mention, The Kansas Seclusion and Restraint 
Law (K.A.R. 91-42-2) called Emergency Safety Intervention 
(ESI), which was initially rolled out in 2015, the early stages 
of when I started teaching. I remember specifically when I had 
questions regarding documentation of restraint and seeking out 
one of the district teaching specialists to assist me. Each 
year during the back to school in-service the special education 
teachers and staff receive an overview of the law. According to 
ESI ``An emergency safety intervention shall be used only used 
when a student presents a reasonable and immediate danger of 
physical harm to the student or others with the present ability 
to effect such physical harm. Less restrictive alternatives to 
emergency safety interventions, including positive behavior 
interventions support, shall be deemed inappropriate or 
ineffective under the circumstances by the school employee 
witnessing the student's behavior before the use of any 
emergency safety interventions.'' So this is typically a 
PowerPoint presentation that is presented to us by our 
Department of Due Process. Throughout the presentation specific 
situations are discussed and staff are reminded of what is 
permitted and what is prohibited.
    Now 6 years in, I don't consider myself a veteran teacher 
but rather a teacher who will find ways to assist every student 
in becoming successful based on their own individual needs. I 
have learned over the years how to identify when behaviors are 
likely to occur and allow for preventative measures and work 
through de-escalation techniques with my students to decrease 
the likelihood of extreme behaviors. While many restraints 
occurred in my classroom my first year, I am proud to say there 
has been one this year. My classroom is one in which 
expectations are clear, consistent, and tailored to meet the 
needs of each student.
    To be clear, consistent support, training, and resources 
are fundamental to giving teachers the ability to create safe 
environments for all students in which they are able to thrive 
and learn.
    Thank you for allowing me to speak today on this critical 
issue and to hopefully be a part of reducing the use of 
restraints in our schools.
    [The statement of Ms. Sutton follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Hayes. Good morning, and thank you all for being here. 
Under committee rule 8A we will now question witnesses under 
the 5 minute rule. As chair, I have decided to go at the end, 
so I will yield to the next senior member on the majority side 
who will be followed by the ranking member. We will then 
alternate between the parties.
    Ms. Shalala. Madam Chair, I ask unanimous consent to insert 
a letter in the record from the Autism Society of America in 
support of this hearing and in bringing to light how 
disproportionately seclusion and restraint practices affect 
students with disabilities.
    Ms. Hayes. So ordered. I recognize the gentlelady from 
Florida.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Shalala. That is all right. We are all freshman. Madam 
Chair, when I was HHS Secretary the tragic death of 11 year old 
Andrew McClain shocked the Nation. It was the misuse of 
physical force against Andrew that caused him to suffocate 
after two mental health workers wrestled him to the ground and 
restrained him. He was held down due to a disagreement over 
whether he would sit for a breakfast. They sat on his chest and 
he died.
    My department adopted new regulations in 1999 to ban the 
use of restraints unless a doctor certifies that restraints are 
needed to ensure the safety of the patient or other patients or 
staff members. That regulation applied to any acute care 
psychiatric, rehabilitation, long-term, and children's 
hospitals. And I pledged at the time we would extend the same 
protections to residential care facilities for children and 
other providers by the end of the year. And we actually signed 
a piece--And President Clinton signed a piece of legislation 
into law in October 2000. Unfortunately, it did not extend to 
schools.
    But I make the point because this issue of restraint and 
seclusion is a long time issue that reflects on our values as a 
Nation. And in my judgment, it is barbaric for schools to 
confine students alone in locked rooms or to use abusive 
methods to restrain little children. Treating school kids this 
way should not be tolerated in this country, period.
    And so we are talking about a piece of legislation here and 
I would like to start with a question for Dr. Sugai. Because 
the data tells us that students with disabilities are often 
more likely to be the students secluded and restrained. In my 
own school district of Miami-Dade, which is one of the largest 
in the country, we have spent a lot of resources trying to 
reduce the number of children that are Baker Acted--that is, 
restrained and taken to a psychiatric facility. And we have 
done pretty well in training people in the schools.
    But I want to dig a little deeper into that population. 
Recently a student in my school district experienced a crisis 
that required immediate intervention to protect the child and 
those around him. Measures that were applied quite frankly were 
uncomfortable and disheartening and even unacceptable to 
witness. The child's aggressive and atic behavior prompted an 
officer with the Miami-Dade schools police department to 
initiate the Baker Act. Many times a disruption caused by a 
student is in part due to learning disabilities or other 
disabilities. And as Mrs. Smith Stated in her testimony, 
behavior was her son's--her son Dillon's form of communication. 
What is the prevalence of the usage of seclusion and restraint 
on students who are non-verbal and what do you recommend to 
school districts?
    Dr. Sugai. A lot to unpack there. Thank you for the 
question. Let me start out by answering generally first. And 
that is I think it is pretty important to understand that PBIS, 
which has been mentioned a number of times, isn't an 
intervention either, that instead it is really this framework 
that we use to improve the quality of the decisions that we 
make around the interventions.
    I am a special educator. I was a special ed teacher, I 
train special education teachers, school psychologists, and so 
forth, so I am pretty close to the world of disabilities. 
However, much of the work I do is with all kids inside of all 
schools. And the primary reason that I would like to mention 
that is because how we support individual kids with 
disabilities is related to how we support all kids.
    Now, kids who present challenges through their behavior, 
through their disability, what have you, often times present 
challenges that are new and different and kind of foreign to 
many of us and we respond sort of without thinking very 
carefully about it. I think the PBIS structure allows us to 
identify interventions that are going to be the most effective, 
most supportive.
    I want to make another comment based on your question 
around disabilities, and that is I think there are two parts to 
this question. One is what do we do when the event happens and 
we engage in restraint and seclusion, and the other part is 
what do we do before. Many of the kids, like Dillon and others, 
have had a history of challenging behaviors and failures in a 
variety of forms. And we probably knew that the kid was 
communicating through his or her behaviors some needs that were 
unmet. And we are not always responding very favorably to those 
communications, if you will. Kids who are non-verbal tell us 
through their behaviors, they tell us by running away, they 
tell us by acting out, they tell us by withdrawing, they are 
telling us by crying. And as we have learned, as Ms. Sutton has 
indicated, those behaviors often times tell us a little bit 
about what to do next. Many of the kids who are engaging in 
some of our behaviors that we are concerned about do it to get 
access to attention and help. Some of those kids to those 
behaviors to escape. Kids with disabilities rely upon their 
behaviors as a way to communicate and sometimes their 
disability gets in the way of indicating effectively.
    So I think your question is really an important one about 
the use of restraint and seclusion with kids who are non-verbal 
because we don't understand how to interpret kids' behaviors or 
individuals' behaviors.
    Ms. Hayes. Can we wrap up? The time is expired.
    Dr. Sugai. Oh. Thank you very much. I think. Yes. OK. So, 
anyway, I just wanted to make sure that you understood that, 
you know, have the context in which that question is being 
presented.
    Thank you. Sorry.
    Ms. Hayes. Now I yield to the gentleman from Georgia.
    Mr. Allen. Thank you so much, and thank you all for your 
testimony this morning. This is a very complex subject and 
obviously, you know, listening to the testimonies. Mrs. 
Nowicki, it looks like this may be more of a training and 
certification issue because each teacher looks like, if they 
are trained properly in how to deal with these things that 
the--and as--again, was witnessed in testimony this morning 
that there is a procedure and a process that you go through to 
deal with, you know, this type behavior.
    In your research, you know, when you gather research 
obviously, you know, some of it you said is unreported, and are 
you getting any feedback as far as like the capabilities of the 
teacher, whether they have been trained? Like Ms. Sutton said, 
at first she really didn't--I mean she had to deal with this 
differently, but when she learned--I mean I would think that a 
teacher, particularly a special education teacher, would be 
trained and certified in dealing with this. Does your data 
reflect anything about the success of the training or 
certification of the teachers?
    Ms. Nowicki. Thank you, Mr. Allen, for the question. So we 
have not yet looked in depth at that issue, but we do have 
ongoing work, as I mentioned, on restraint and seclusion in 
response to a congressional mandate, in which we hope to learn 
a little bit more about the types of responses that are 
commonly used and the types of outcomes that one sees when one 
applies them.
    Mr. Allen. Mm-hmm. Well, I know we have a special needs 
grandchild, my 12th, and we have learned a lot, and she is 
precious. But, again, it is an ongoing learning--learned 
process. As far as the current government programs--because we 
mention it--Health and Human Services is somewhat involved in 
this, Department of Education. What Federal programs out 
there--and obviously we have the Government Accounting Office 
that is reviewing this--what do we have going on out there 
today dealing with this and how do we do it more successfully 
as far as accountability goes?
    Ms. Nowicki. So that is some of what we hope to dig into a 
little deeper in this work that we are doing on seclusion and 
restraint. We hope to learn a little bit more about the degree 
to which PBIS is being used in schools. Education does describe 
PBIS as a best practice alternative to restraint and seclusion. 
We hope to talk to some schools and districts and States and 
see what their experience has been in that space. We have--I 
think it is important to sort of remember that the Federal data 
is numbers, you know, on percentages, and they don't really 
tell the full complete story. But what you are asking is some 
of what we are hoping to get at when we do this work to sort of 
see what is going on the ground and learn a little bit more 
about the experiences that schools and districts have had when 
they used this practice that has been identified as education 
as a best practice.
    Mr. Allen. Exactly. You know, in the Every Student Succeeds 
Act each State is required to submit to the Federal Government 
a plan as far as accountability is concerned. Would it be 
appropriate, or is this something that we might want to think 
about, is in having this addressed in that accountability plan? 
Or it may already be addressed, I am not sure. I am going to 
research that. But as these--I know the State of Georgia 
submitted a plan which was accepted by the Department of 
Education. Again, I want to check to see if it--anything about 
restraint in that compliance requirement, but have you had any 
experience as far as what the States re submitting to the 
Federal Government for approval?
    Ms. Nowicki. We haven't looked at that specifically. To my 
knowledge that is not something that--to my knowledge that is 
not required in the State plan template that most States use to 
submit their State plans. So I am not aware.
    Mr. Allen. These are just ideas that I am throwing out 
there that might be an easy way to get more--well, we want 
absolute accountability; this should not happen, you know. And 
so, but you have got to deal with it. And the best way to do 
it, in my opinion, is local, State, and then reporting this 
data to the Federal Government.
    Thank you so much and I yield back.
    Ms. Hayes. Thank you. I now recognize the gentlelady from 
California.
    Ms. Davis. Thank you, Madam Chair, and thank you to all of 
you for joining us today and being with us. I think all that 
you bring is really critically important.
    I wonder if you could turn to the school-parent 
relationship, school-teacher relationship and what you found in 
that was helpful and also not helpful. I think, Ms. Sutton, you 
spoke about in Kansas that there is a State law about the 
seclusion and restraint which does involve the parent-teacher 
relationship. And certainly, Mrs. Smith, in terms of what you 
experienced yourself personally and, you know, all of you have 
had so much experience with this.
    So what is it that is so important in having good 
notification from the school and what can we particularly be 
advised about when considering this kind of legislation? What 
is good policy, what should be scripted policy I guess I would 
like to ask?
    Ms. Smith. Ok. Thank you for your questions. I can add a 
little bit to that.
    So my personal thought is that if a restraint or a 
seclusion is occurring, we should receive notification 
immediately to let us know, OK, this is what we had to do, this 
is why we did it. And then I know that some States have 
required documentation. So I think there should be--it should 
be documented and that should be provided within, you know, 24 
hours of that period. And a meeting should occur to discuss why 
that happened and what can be done to prevent it.
    One interesting example that I can give you, in the new 
school with my son, not including our--specifically that, but 
just as far as communication goes, at the beginning of this 
year he was coming into school very agitated and they couldn't 
figure out why. So I have a very good relationship with the 
school and they called me up and said we have noticed this now 
for a week, he is very agitated as soon as he comes in school, 
what is going on. And we kind of talked about it back and forth 
and said he is spending a lot of time on the bus and he is 
spending a lot of time on the bus with other kids that, you 
know, can have challenges as well. So we said here is a good 
idea, what we will do is we will give him a break as soon as he 
comes into school and that will help him hopefully kind of even 
out and get the day off on a good foot. And it did. Immediately 
they saw results.
    So I think a lot of it is you are a team and you have to 
remember that you are a team and that you are there together to 
work to get your child's education to where it needs to be.
    Ms. Davis. Thank you. I am going to move on just because we 
are limited in time.
    Ms. Sutton, in terms of the Kansas law, what in that was 
helpful? We all know with an IEP that there should be an 
ongoing relationship with parents, but I think also this key 
notification time.
    Ms. Sutton. So everything that she just said is something 
that in Kansas we do. So in Kansas you have the day that the 
seclusion or restraint occurs you need to be contacting parents 
and you need to do so--like you need to try two different 
methods. You can't get them one way, you need to try another. 
And then beyond that there needs to be documentation within 24 
hours. Like by the next school day there needs to be written 
documentation. And in that documentation there is like 10 
different components to that, and one of them is like to set up 
a time to have a followup meeting.
    So--And that just builds everything she was talking about, 
that team minded atmosphere. You can build that with parents 
when you are consistently communicating with them.
    Ms. Davis. Mm-hmm. And I wonder, Dr. Sugai, are there times 
when people think that those--that that prescriptive behavior 
could be burdensome to schools? Should everybody follow that? 
What would you suggest?
    Dr. Sugai. You know, I think the parent involvement is 
absolutely essential to the team plan component. And I just 
want to reinforce one thing that was mentioned earlier, which 
is it is about building a prevention plan, about what have we 
learned from this particular episode that would cause us to do 
something differently next time.
    And I would add to that by saying it is a school wide 
response. It is not just one teacher's response or one person's 
response. I know that when Dillon moves through his school he 
connects with the bus driver, the office staff, the music 
teacher, the PE teacher. Every adult needs to be on the same 
page with respect to this.
    And as a parent myself, I am going to be more comfortable 
if I know it is a school wide response as opposed to an 
individual response. And family members are key players in this 
whole process, as well as students participating in their own 
action planning and intervention planning. They have a voice in 
this process as well. And we sometimes forget that because we 
want to put something on top of them.
    Ms. Davis. Mm-hmm. Yes. Thank you very much. I think what 
you refer to as all the people in the school are so critical, 
aren't they? And I appreciate that.
    Thank you very much for your testimony today.
    Ms. Hayes. And now I yield to the gentleman from Texas.
    Mr. Taylor. Thank you, Ms. Chairman. I appreciate that.
    Thank you all for being here. I think this is an important 
hearing. I served in the Texas legislature where we dealt with 
some of these issues. And we have actually we basically have 
eliminated seclusion in our state and we have greatly reduced 
restraints to only emergency situations.
    And, Mrs. Smith, your testimony has very much touched my 
heart. It must be a lot to go through with Dillon. And he is 
lucky to have a mom that cares. And I think what is interesting 
about your testimony is just the extent to which it takes a 
parent and it takes people working together at the local level. 
And as much as we may want to fix this problem from Washington, 
it really is the mom who cares about her son and loves her son 
that is really make that effect and making that change.
    Ms. Nowicki, a question for you. I understand that we have 
Federal policies on seclusion and restraint at the Department 
of Education's Office for Civil Rights. And while that may 
not--it is something I am not as familiar with because in Texas 
we basically I think have dealt with this particular issue, can 
you speak to what that has done nationally, where they have had 
an effect, if any?
    Ms. Nowicki. So, thank you for the question, Mr. Taylor. We 
in our ongoing work on seclusion and restraint hope to learn a 
little bit more about the level of awareness that districts and 
schools have about the guidance that Federal agencies have out 
there, the degree to which they have used it, if they have 
found it useful, if it is not useful, why not. So those are 
some of the issues that in our ongoing work we hope to be able 
to shed some light on.
    Mr. Taylor. And then another question for you is there is a 
new initiative the Department of Education is undertaking to 
review some school districts' data. And I know that data is not 
is not consistent state to state, district to district, and so 
you will watch some districts say that wasn't an incident and 
another district will say that is an incident, and so you have 
very different numbers. And not by anybody trying to be 
nefarious, just different standard are applied in different 
systems--different school districts. And these might be very 
substantial sophisticated school districts that are spending, 
you know, a $1 billion a year budget that have hundreds of 
thousands of children that are being educated there.
    And so what is being done at DOE to try to get more 
consistent data so that we can really understand this problem?
    Ms. Nowicki. So that is another thing that we hope to be 
able to dig into in this ongoing work that we have on seclusion 
and restraint. That issue--The initiative was announced less 
than a month ago, so we really don't have a lot of information 
about it, but we are going to be interested to see, you know, 
what Education really means when they say that they are going 
to be conducting data quality reviews and working with schools 
and districts to improve the quality of their data.
    What we do know is, right now about that data from a 
national picture is that there are strong patterns of 
disproportionality of seclusion and restraint with boys and 
students with disabilities. But we hope to learn a little more 
about what Education is doing there.
    Mr. Taylor. Can you speak to the differences in what states 
have done in terms of, you know, some--I mean, so, for 
instance, it appears that Connecticut does not have State laws 
against something that Texas does, right. And so I am just 
trying to figure out how, you know--we are trying to legislate 
nationally, or that is what this chamber does. So currently 
Texas I think has solved some of this problem that Connecticut 
has not. Have you looked at that, have you researched in that, 
have you evaluated the 50 states and said, hey, these 30 States 
are doing it right and these states have yet to address this 
problem?
    Ms. Nowicki. We do not have work looking nationally at 
state laws and policies around seclusion and restraint. I think 
what you are getting at is are there best practices or lessons 
that can be learned, you know, maybe from one state to another. 
I think when, you know, we look at different approaches that 
states are taking, I think we generally want to see whether 
there is evidence out there that they are working in the 
context in which they are applied. We have not independently 
determined best practices around seclusion and restraint, but 
as we discussed earlier, Education has indicated that PBIS is a 
best practice and we do hope to learn more about states and 
districts that are using that framework in their approaches and 
what sort of experience they have had with it.
    Mr. Taylor. Thank you. I yield back.
    Ms. Hayes. Thank you. Just for clarification, I just want 
to add that while we do have guidance from the Department of 
Education's Office of Civil Rights, there is no binding policy 
on this right now.
    I now yield to the gentleman from New York.
    Mr. Morelle. Thank you very much, Madam Chair. And I am 
grateful to the panelists for coming and sharing your thoughts 
on this important subject.
    I really think just to set the table for the few minutes 
that I have, I served in the state legislature in New York for 
28 years, wrote the law that required insurance companies to be 
mandated to provide habilitative services for people on the 
spectrum and those who had pervasive developmental delays. I 
also wrote the law that licensed applied behavioral analysts 
for the first time in New York. So I come a little bit from 
that perspective.
    Second, work that I am doing around children in poverty in 
Rochester, New York where I represent, one of the concerns I 
have is the traumas inflicted on young people and how trauma 
impacted--or trauma informed care is important.
    So I think from both of those, I thought this was a 
fascinating panel. So I wanted to--first of all, I appreciate 
your testimony and I did look a little back at what New York is 
doing since the GAO report in 2009 detailed disturbing, and at 
times fatal, restraint and seclusion practices. So I am going 
to have some more work to do in New York, which I will take up 
with the State Education Department, but I think they are 
actually--made some real progressive moves. But there is 
probably more to be done.
    I wanted to quickly get to questions about PBIS, which I 
think, Dr. Sugai, you described as an organizational framework. 
But I would be curious on student outcomes. Those 
organizations, those districts that have been using PBIS as the 
framework, can you talk about outcomes? And can you talk a 
little bit about teacher retention in places? Does this affect 
the ability for teachers to be successful and to not get 
discouraged? And then I will probably have a question for Ms. 
Sutton as well, but if you could just address that, that would 
be great, sir.
    Dr. Sugai. Good question. So, again, thank you for kind of 
reiterating that PBIS is not an intervention. We don't PBIS 
kids at all. You know, PBIS I think again is a structure that 
helps adults make better decisions about how to support kids, 
not for all kids.
    I think it is also important to remember that PBIS offers 
this tiered framework. How do we work with all kids, some, and 
a few, to make sure that their individual needs are being met. 
In general, the research we have accumulated over the last 25 
years or so, if not more, just because of the behavioral 
interventions we kind of focus on, have been pretty clear about 
dealing with many of the risk factors that contribute to the 
events that result in restraint and seclusion.
    As you mentioned earlier, trauma is not just a kid, trauma 
is on family, trauma is on teachers, trauma is on everybody. 
So, one is we have been able to demonstrate pretty significant 
impact on major office discipline referrals associated with 
fights, you know, substance use, and so forth, which are also 
kind of precursors for other problems. Improvements in school 
climate, decreases in bullying behavior, increases in positive 
school climate, improvement in organizational health, 
improvement in how teachers perceive their working environment 
as being safer and being more efficient, more effective. And 
that comes to your retention question in a second. There is 
improvement in attendance and so forth. We have done a pretty 
good job I think in documenting sort of the overall effects on 
school wide implementation.
    Some similar kind of outcomes are associated with working 
with individual students, like Dillon and others, and how to 
improve their individual goals on their IEPs and so forth. 
Going to your question a little bit about, you know, how do we 
think about that in the context of, you know, focusing 
specifically on restraint and seclusion, PBIS is really a 
protective strategy in order to deal with those risk factors 
that precede those chains of events that lead to restraint and 
seclusion. And I really would suggest to you that, you know, we 
really need to have a focus on what is required to make sure 
people do the right thing at the state, district, school level. 
And even if it is reinforcing something that is in place in one 
place versus another, having one common message will be an 
important kind of goal.
    Thank you.
    Mr. Morelle. Thank you. If I can, Ms. Sutton, as I often 
say, my wife is a retired middle school teacher. Special place 
in heaven for middle school teachers. But I know that time is 
not a luxury for--or time is a luxury for teachers and I 
applaud all the work they have done.
    I just wonder if you could--and I understand also, you 
mentioned in your testimony you moved from frequent high rates 
of restraint in the first year to only one restraint this year, 
which obviously is pretty impressive. In a short answer, could 
you just share with us how reducing restraint has sort of 
impacted your life as a teacher, particularly as it relates to 
your relationship with your students and sort of the climate in 
your classroom?
    Ms. Sutton. Yes, it is pretty straightforward. Everyone in 
my classroom can breathe a little easier now. When there were 
high rates of restraint, my classroom was no longer a safe, 
inviting place for my students to come every day. But 
decreasing that number, my students feel safer, I am able to 
work better with my paraeducators [paras], I can build 
relationships with families, I feel better. It's just all 
around better. There is like a calmness that was not there 
before.
    Mr. Morelle. Well, thank you. I--I do appreciate the 
panelists being here. This is an important subject.
    And I would say, as a former state legislator, that I don't 
see this as a conflict. I appreciate the comments my colleagues 
made. This is really the Federal, state, and local governments 
working hand in hand on trying to address a more progressive 
way of dealing with the children that are in our collective 
care. So I don't see it necessarily as a conflict, but rather a 
coming together. So I appreciate that and I appreciate all the 
great work you do.
    Madam Chair, I ask unanimous consent to submit the 
following letters, one from the Consortium for Citizens with 
Disabilities, and one--I apologize, I have to put my glasses 
on--The Alliance to Prevent Restraint, Aversive Interventions 
and Seclusions. The first urges the elimination of using 
dangerous and dehumanizing practices and means of managing 
challenging behavior, and the second regarding national minimum 
standards to prohibit the use of seclusion and prevent the use 
of restraint in schools.
    Ms. Hayes. So ordered. I now yield to the gentleman from 
Washington. I am sorry, Wisconsin.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Grothman. Wisconsin. Bip, bip, bip, bip, bip. Kind of 
together up there in the northern part of the country.
    Ms. Nowicki, do you believe that the public is aware that 
the Department of Education and Health and Human Services have 
resources regarding restraint and seclusion? Does the public 
know that do you think?
    Ms. Nowicki. That is part of what we hope to learn in our 
ongoing work on restraint and seclusion.
    Mr. Grothman. So you think the agencies can maybe do more 
to educate the public that they have resources available?
    Ms. Nowicki. Again, that is part of what we hope to learn 
during our ongoing work.
    Mr. Grothman. Ok. And you are doing work broadly. What do 
you feel you are going to learn from your work dealing with--
    Ms. Nowicki. I think we hope to learn about the challenges 
that schools and school districts face in providing accurate 
data on restraint and seclusion. We hope to learn a little bit 
more about why data might be misreported. And to your earlier 
question, we hope to learn a little bit more about whether 
there is anything that the Federal Government can do to help 
increase awareness of guidance it may have, whether it is 
perceived as being helpful.
    Mr. Grothman. Ok. I guess, and I apologize, I have two 
hearings going on right now, but initially we heard I believe 
some horrific stories of abuses of restraint in the schools. Is 
that correct?
    Ms. Nowicki. There was testimony to that account, yes.
    Mr. Grothman. Right. Across the country, when this abuse is 
happening, is there anything that you can tell us that you find 
in common in these situations, that it involved teachers who 
had previously done bad things and were not adequately trained? 
What sort of conclusions can you draw from the high profile 
horrific things that have happened?
    Ms. Nowicki. My sense is that you may be asking about the 
report that GAO did about 10 years ago on restraint and 
seclusion that reported on those types of cases. I think, you 
know, what I would draw from that report is that highlighted a 
number of tragic cases that should not have happened. What I 
think that report--
    Mr. Grothman. Should never happen. I mean just 
unbelievable. But go ahead.
    Ms. Nowicki. I think, you know, what that report does not 
do, we did not have the benefit--we, all of us, did not have 
the benefit of national data on the degree to which restraint 
and seclusion is occurring back then as we do now. So that 
report didn't really have the context in which that is 
happening. I testified earlier that restraint and seclusion in 
general is very rare.
    I think that report also--it is important to understand 
that whenever anyone looks at a illustrative case examples, 
they are--that methodology is never intended to be a full 
accounting or a full picture of what is going on the ground as 
well, so.
    Mr. Grothman. No, no, no. But I think when horrific things 
happen, and when they happen several times, when you read about 
them you can't help but draw conclusions or find similarities. 
And that is what I am trying to get at. I mean were there--
there has to be a degree of callousness out there to over apply 
restraint or seclusion. And I wondered if, you know, was it 
disproportionately happening in given states, was it 
disproportionately happening with education staff that didn't 
know what they were doing or under qualified, were there 
examples of staff that were admonished and came back and did 
things again? I guess that is what I am looking for. I would 
think whenever you have a series of bad things happening, you 
can't help but draw some broad conclusions, and that is what I 
am looking for.
    Ms. Nowicki. I think the broad conclusions that we can draw 
from the national data that we have available is that restraint 
and seclusion is incredibly rare and that it overwhelmingly or 
disproportionately affects students with disabilities and boys.
    Mr. Grothman. Right, but the horrible abuses should never 
happen. In cases where people are actually hurt, do you draw 
any similarities between those? Any conclusions that you can 
draw that would cause these things not to happen again?
    Ms. Nowicki. The work that I have done has not gone down 
that path. I am sorry.
    Mr. Grothman. Ok. I guess then I will fall--because I 
missed the beginning I am afraid to mispronounce your name--
Doctor--
    Dr. Sugai. Sugai.
    Mr. Grothman. Sugai. Ok. Are there any broad conclusions 
that you draw of the most horrific things that have happened?
    Dr. Sugai. You know, I think one of the things we have 
learned is that most educators want to do the right thing. And 
what happens is two things. One is we may not have the skills 
to be able to respond appropriately, we may have the skills but 
we are not good at it. You know, the kids are really good at 
what they do and we are sometimes not as good in our response. 
Third thing we have learned is that, you know, sometimes the 
structures are not in place in a school wide system to be able 
to have a reasonable response that prevents some of these 
horrific things from happening.
    I agree that the restraint and seclusion traumatic events 
are relatively infrequent, but at the same time, I also would 
argue that there are other events that are similar that might 
lead to that are not responded to in favorable ways. And I 
really do think that it is important to kind of think about 
people are trying to do the right thing, but we are not 
creating teaching and learning environments that actually 
support development of a safe, caring, and predictable 
environment for kids to be successful, all kids in particular.
    So I am right on the same page with respect to your 
concern. I think it is not about good and bad people, it is 
more about are we supporting staff to be able to implement the 
right thing over time in the right place.
    Mr. Grothman. Ok.
    Ms. Hayes. Thank you. I now yield to the gentlelady from 
Washington.
    Ms. Schrier. Thank you, Ms. Chairwoman. My question is for 
Dr. Sugai. I am a pediatrician and so I have seen up close and 
personal kids who act out and the benefits of positive 
behavioral reinforcement, and also the effects of fight and 
flight and toxic stress, and seclusion and restraint. And when 
this happens over and over again--we have already discussed 
what happens in the classroom and in the contemporary setting, 
but I wonder if you could talk for my colleagues about the 
long-term implications and what happens to these kids later on 
in life, what the implications are?
    Dr. Sugai. Yes. Great question. And I am going to respond 
to it generally, not just with kids with disabilities, but all 
kids who experience these kinds of events. And I fall back on 
some of the research out there on trauma, and the effects of 
trauma, regardless of what it is. This is a traumatic event and 
it has an effect not only on the student, but the teacher and 
the family members, and so forth. So if you look at that trauma 
literature it is pretty clear what the impact it. It affects 
kids' academic progress, it affects their ability to develop 
and maintain relationships, it affects their ability to be able 
to be successful in their own personal lives, with friendships, 
family, and work. So the implications are pretty significant 
and we really upon that trauma literature to help us with that.
    The restraint and seclusion literature is not as strong 
about the long-term effects, except that one thing we have 
learned is those kids, because often times they cannot 
communicate in ways that are more typical, have a much more 
difficult time trying to express their needs in the long-term. 
We end up seeing kids that have had experiences with restraint 
and seclusion also ending up getting involved in the juvenile 
justice system as well as mental health.
    So I think the long-term factors are significant and I 
think that is one of the concerns we have about, you know, 
making sure we have appropriate restrictions in place on the 
use of this stuff.
    Ms. Schrier. Sorry. Thank you for that answer. I would also 
note that it is my understanding that kids exposed to toxic 
stress--and this would likely be included because there is a 
whole milieu there--also have problems later with mental 
health, with drug abuse, but also with things like type 2 
diabetes, hypertension, and heart disease that we don't often 
relate, but physical health and mental health are tightly 
intertwined there.
    So thank you for your testimony.
    And I yield the rest of my time to my colleague, Ms. 
Shalala.
    Ms. Shalala. Thank you. Thank you very much. Dr. Sugai, I 
don't think I gave you enough time to answer my question, so I 
was going to offer you that time now.
    Dr. Sugai. I talked too much that I don't remember the 
question now.
    Ms. Shalala. Yes. It really had to do with children with 
disabilities and these restraints and what are the specific 
things, in addition to the kind of framework training program 
that you have given us.
    Dr. Sugai. Right. So two things, and I will kind of restate 
something that was made earlier. I think sort of a function 
based approach to this is really important. There was a comment 
earlier about what meaning or communications are occurring 
around behavior. And we have to understand what kids are 
communicating through their behavior, especially in an 
escalating chain.
    The other thing we have learned is these escalations, if 
you will, or what results in restraint and seclusion, are often 
also the adult is escalating at the same time. And we want to 
ask ourselves the question about what can adults do differently 
to diffuse or redirect these experiences.
    And the last thing I would like to comment on is that if I 
was working a child like Dillon, you know, I would be asking 
what are the conditions under which this is increased 
likelihood of happening and what can we do to arrange the 
environment that would enable the kid to be successful in that 
environment as opposed to being unsuccessful.
    I know that every one of us in this room set an alarm clock 
to be here on time and that alarm clock is a way to pre-correct 
for an error. And we need to be setting alarm clocks with our 
kids so that we avoid the likelihood of problems occurring.
    I also know that some of you had to set two alarms on your 
smart phone to get here on time. That means that some kids need 
a little extra, and Dillon might be one of those students who 
needs a little extra support in order to be successful.
    And there are some of you who had to call your mother last 
night and say, mom, call me in the morning to wake me up to 
make sure I get here on time. And that is a third level of 
intervention that some kids need to have in order to prevent 
those cycles from happening in which restraint and seclusion is 
the outcome.
    So when I think about kids with disabilities, I really 
think about what kinds of alarms can we set that can catch kids 
before they go down that pathway, but help adults be more 
successful in supporting those kids. I worry about waiting for 
the kids to tell us when they are ready or not, because they 
just don't have the skills or the means to communicate that to 
their environment.
    Ms. Shalala. Thank you, Dr. Sugai, and I thank the 
gentlelady from Washington for the time.
    Dr. Sugai. Thanks for the extra time.
    Ms. Hayes. Thank you. I now yield to the gentlelady from 
Nevada.
    Ms. Lee. Thank you, Ms. Chairman--Chairwoman. First of all, 
I want to thank you all and I am very happy that we are taking 
up this issue in this subcommittee today. My background is 
working for nonprofit organizations that help our most at-risk 
students graduate from high school, and obviously students with 
disabilities being among the most vulnerable.
    So I agree with Dr. Sugai who says that teachers want to do 
the right thing and it is really providing with them with the 
supports. And having been--I am the mother of a daughter who 
is--was diagnosed with ADHD and dealt with interventions. She 
does not have a disability, but the stress that our family went 
through--Mrs. Smith, when I read your testimony, and thank god 
you had a resolution that worked for your family, but the 
stress that it places on a family. And having read the GAO 
report with so many families that did not have that resolution 
just breaks my heart.
    Ms. Sutton, I--you know, I know there are so many teachers 
like you who want to do the right thing. And I wanted to ask 
you, had you not taken upon yourself to get the education, 
where do you think you would be today?
    Ms. Sutton. It is tough to think about, and I don't really 
like to think about where I would be at. I don't know that I 
would still be teaching. I would be, I think I would be burnt 
out, honestly.
    Ms. Lee. I wanted to ask you about incidents. You know, in 
Las Vegas we had an incredibly troubling incident where a 
mother went to school to find that her son was secluded in an 
outside area when it was 105 degrees outside. And, you know, my 
heart breaks for her. So I know we need to make changes and 
have a national guidance. And its, You know, to me it is really 
just guidance. But I wanted to talk about parents and 
documentation. When you find that you have to--your one 
incident, can you explain how did you document that and what 
does that look like?
    Ms. Sutton. So in my district we like have to document 
restraint and seclusion through a district website. So everyone 
has to do that. And then we call parents and we discuss it. And 
for me, I found like the most beneficial is to like really like 
talk to parents, like hey, this is what I am seeing at school, 
what are you seeing at home. And then, again, that team minded 
atmosphere, like oh, you tried that at home and that worked, 
let me try that at school. So just working together.
    Ms. Lee. Mm-hmm. And any account--. No, Sorry, I want to 
move on. In Nevada, my state, mechanical and physical 
restraints are prohibited unless extenuating circumstances, 
such as an emergency or medical order, but even in these cases, 
parents should be aware of how their children are being 
treated.
    Do you discuss restraint as a possibility in advance?
    Ms. Sutton. No, because it is never the goal. Restraint is 
never the goal. My goal as the teacher is to provide the 
students coping skills and that is what I include in 
documentation, not restraint.
    Ms. Lee. Ok. And then my last question really is around 
time. And clearly having this type of one on one interaction 
with parents, in a perfect world what do you feel would be 
needed for teachers to have the type of--you know, provide the 
type of support you do?
    Ms. Sutton. I think it is just the willingness to do it, 
because if you are not doing it, you are doing a disservice to 
the kids and the families. So you need to be willing to make 
the time to communicate with people.
    Ms. Lee. Thank you. I yield the remainder of my time.
    Ms. Hayes. Thank you, Ms. Lee. I am going to ask the next 
set of questions.
    First of all, as a teacher, I know that the last thing that 
a teacher wants to do is ever restrain a child. As I sit here I 
am a little surprised though that this conversation hasn't 
really expanded outside of just special ed and regular ed 
because I know that even without the data, having been in a 
classroom, that we really need to begin to disaggregate this 
data by race, by gender, by learning disorders, behavior 
disorders. Because I know that boys, especially boys of color, 
are disproportionately impacted in my district. I have seen it 
all over the country. And I think that has to be a part of the 
conversation. What does that look like, why, you know, why are 
we going right to restraint in many of these issues.
    Ms. Smith, thank you so much for being here and being a 
voice for your child. I am always very cognizant of the fact 
that not every parent is able to do what you did for your son 
or to seek those services or to demand that his needs are met. 
So in my mind I always say that the school has to do it, you 
know, that the educators have to be ready because our job is to 
in essence educate children.
    Ms. Sutton, you just said that you don't have conversations 
with parents before, and I recognize why. I heard your answer 
that it is usually an emergency. And I know that there is 
concern about the use of planned restraints, but we also know 
that there are some situations or some students--do you ever 
have conversations with parents that start with, you know, if 
this were to happen, or if we ever had to use a restraint, here 
is information, this is why, this is what that looks like? Not 
to say that you are preparing for it, but just beginning to 
have those conversations so that a parent is not getting a call 
that says 911 has been dispatched and you need to get here 
before the police and the ambulance. Do you think that there is 
a space for those conversations to happen?
    Ms. Sutton. I think there is a space for it, but I think it 
comes with--it is not going to seem so intense when you have a 
trusting relationship with the family. So it is going to be 
open communication anyway. So it doesn't need to be this big 
daunting thing, but it could be this might happen.
    Ms. Hayes. But, Ms. Smith, can I ask you would you have 
felt better prepared for a situation where your son was being 
restrained if the conversation was had before you were in this 
high-pressure situation where--and now you are making these 
decisions like in the moment with your son being threatened to 
be put in handcuffs? Would you have appreciated at least a 
conversation about why a school would even go down a path of 
restraining your child?
    Ms. Smith. Yes. I would have been interested in receiving 
documentation of what the process is, at what point do they do 
each one of these steps. So at what point do they feel the need 
to restrain, what requires restraint. And then if the restraint 
doesn't work, what is the next step, what do they do. So that 
would have been something that--it would have been nice to 
receive that and to kind of understand what brought them to 
that point.
    Ms. Hayes. Information. Information is good. Dr. Sugai, it 
is always great to have someone from Connecticut here in this 
room, especially someone from our flagship educator preparation 
program. And we have known that the work that you and your 
colleagues are doing to help reduce challenging behaviors and 
improve school climate, we have known about all that. But have 
you seen much implementation nationwide on these programs? I 
mean I was in a district that supported PBIS, but how can we in 
Congress better support schools to use PBIS and reduce 
seclusion and restraint?
    Dr. Sugai. Good question. So if I may, I just want to 
respond a little bit to the previous question, and that is just 
to say that I think all schools have to be prepared for crisis 
and emergencies. It could be the child who has a substance 
abuse, you know, problem, it could be a gang fight going on, it 
could be a rabid dog in the hallway, it could be a fire. We 
need to have planned responses for those unfortunate events are 
likely to happen at the individual kid level or other.
    I also think though that has to be balanced with, again, a 
positive climate in which you feel comfortable in responding to 
those kinds of situations in ways that are proactive and 
preventative.
    So I just wanted to respond a little bit by saying I do 
think you need to have a planned response for the full range of 
problems that might occur, which might include restraint and 
seclusion. And that has to be a planned response, you have got 
to be competent at it and so forth. But it has got to be 
balanced with a proactive positive support system, which is 
your first real question.
    We have been really fortunate. We have about 26,000 schools 
that have touched PBIS in some way or fashion. And the 
challenge for us is how do we increase implementation fidelity. 
About 65 percent of those schools are implementing with high 
degrees of fidelity based on our measure that we use. The 
supports for more intensive interventions, for kids with more 
significant challenges, isn't as great because the intensity of 
the support is much more complicated.
    I think our implementation nationally could be scaled up, 
if you will, and current efforts sustained if we had the 
ability to give districts and States some structure that 
allowed them to be able to use their resources efficiently and 
effectively. And I think that is where the Federal Government 
could give guidance, because there is so much variability right 
now and a lack of ability to be able to organize their 
resources.
    Ms. Hayes. Thank you. I now yield to the gentleman from 
Virginia.
    Mr. Beyer. Thank you, Madam Chair, very much.
    Ms. Hayes. Thanks for joining us.
    Mr. Beyer. Thank you. It is an honor to be here, however 
temporarily. And I want to thank all of you for being at such 
an important meeting.
    Seclusion and restraint are dangerous, ineffective 
practices that can cause students permanent harm and should be 
eliminated or tightly regulated in all our schools. I was very 
proud to inherit the Keeping All Students Safe Act from then-
Chairman George Miller, and now champion it with Chairman Bobby 
Scott, a bill which aims to prevent such harmful discipline 
practices.
    Every child should be safe and protected in school, every 
parent should know when something happens to their kids. And we 
know the alternative to seclusion and restraint exists. Many 
schools around the country are implementing behavioral 
interventions that respond and resolve the behavior before it 
escalates and that maintain the dignity of the child in 
distress and the safety of both students and school personnel.
    I am the father of four. More than once I have been called 
into school when the kids were out of control. This Keeping All 
Students Safe Act has been introduced in every Congress since 
the 111th. We are now at the 116th. It has passed the House 
before, but a new improved version will be shortly introduced. 
But your feedback today really helps this bill, makes it 
better, and builds the support that we need.
    Ms. Sutton, in the ranking statements the ranking member's 
opening statement he argued that every State is different and 
that we should, to the extent possible, let the States' 
individual school systems decide, which, you know, has some 
merit. But there are 11 States that have no laws or regulations 
and there are 39 states that do, and they vary widely from 
state to state.
    So three quick questions. Are students the same from state 
to state? Is seclusion ever appropriate? And what is wrong with 
the minimum standard across the country for those receiving 
Federal funds?
    Ms. Sutton. What was the first part of that?
    Mr. Beyer. Are students relatively the same between Kansas 
and Virginia and Nevada?
    Ms. Sutton. I think students--yes, they have similar 
qualities, but I think every--it would be nice to have 
guidelines because if a student is going from one State to 
another, like the standards are going to be different. So it 
would be nice to have like consistent guidelines.
    Mr. Beyer. So is there anything inherently evil about have 
a minimum standard for the country?
    Ms. Sutton. No, not inherently evil.
    Mr. Beyer. Ok. You know, Ms. Smith, you know, one of the 
most troubling and challenging pieces of this issue is that 
parents don't know about seclusion or restraint. And I can't 
tell you how upsetting that has to be as a parent. Thanks for 
sharing your story, which I know is very difficult. How are you 
ultimately made aware of the restraint incident, how long had 
it been going on with Dillon as a kindergartener before you 
knew?
    Ms. Smith. It just kind of happened. So 1 day I received a 
call and they would tell me, oh, just so you know, this is what 
happened and we restrained him today. And I wasn't sure what 
they meant because I know that there are all different kinds of 
restraints, but I believe it is the first time they did give me 
a phone call and they did tell me, we had met. We had 
subsequent meetings. But I was made aware after that, that they 
were doing it very regularly and I wasn't--I didn't know. 
Through various comments from various people it seemed like it 
was just happening more than I was aware of.
    Mr. Beyer. How specifically should a parent be notified? 
Every time, the first time, after the 10th time?
    Ms. Smith. I--Well, I think every time that it happens they 
should receive a phone call of what kind of restraint was used, 
why it was used, what started the whole situation. And then, 
you know, a meeting should be held shortly after to discuss 
that further and find out what can be done to prevent further 
restraint or seclusion.
    Mr. Beyer. Thanks. Ms. Sutton, the bill that we are about 
to introduce talks about this minimum standard, but I don't 
think it specifically requires training for teachers. How 
should we best address that? Because you certainly talked about 
how the training changed your life and your teaching.
    Ms. Sutton. There needs to be training because we have 
talked a lot about the effect it has on students, but like 
teachers who have to implement these restraints, it is 
exhausting. It really takes a toll on you mentally and 
physically. So if there is not training for teachers or all 
school personnel, then restraints are not going to be happening 
appropriately.
    Mr. Beyer. And my able staff just corrected me and said 
there is training in the bill. So we are moving in the right 
direction.
    Madam Chair, I yield back.
    Ms. Hayes. Thank you. I think all of our questioning has 
ended. I remind my colleagues that pursuant to committee 
practice, materials for submission for the hearing record must 
be submitted to the committee clerk within 14 days following 
the last day of the hearing, preferably in Microsoft Word 
format. The materials submitted must address the subject matter 
of the hearing. Only a member of the committee or an invited 
witness may submit materials for inclusion in the hearing 
record. Documents are limited to 50 pages each. Documents 
longer than 50 pages will be incorporated into the record via 
an internet link that you must provide to the committee clerk 
within the required timeframe. But please recognize that years 
from now that link may no longer work.
    Again, I want to thank the witnesses for your participation 
today. What we have heard is very valuable. Members of the 
committee may have some additional questions for you and we ask 
the witnesses to please respond to those questions in writing. 
The hearing record will be held open for 14 days in order to 
receive those responses.
    I remind my colleagues that pursuant to committee practice, 
witness questions for the hearing record must be submitted to 
the majority committee staff or committee clerk within 7 days. 
The questions submitted must address the subject matter of this 
hearing.
    I now recognize the distinguished ranking member for his 
closing statement.
    Mr. Allen. Good. And thank you for your chairing this 
hearing. This has been very educational for me in trying to 
understand a very complex subject. Mrs. Smith, thanks for being 
a great mom. You are a real example for all moms out there and 
to come and tell your story is very moving. But thanks to all 
the witnesses. Again, you have laid out the issues. I do 
believe that this really centers around understanding the 
situation and being trained to deal with the situation and then 
some type of a process that we can make sure that each child is 
loved on and cared for and that anything like this would be an 
absolute last resort.
    So we have just got to figure out how is the best way to go 
about that. I applaud Kansas. I think you all have done some 
great work on this. And some other States that need to get 
involved in that.
    With that, thank you so much, again.
    And I yield back.
    Ms. Hayes. Thank you. I now recognize myself for the 
purposes of making my closing statements.
    First, I seek unanimous consent to submit letters in 
support of Federal minimum safety standards and the Keeping All 
Students Safe Act. The letters are from the American Civil 
Liberties Union, the Council of Parent Attorneys and Advocate, 
the National Council on Disability, The Arc, the Council for 
Exceptional Children, the National Association of School 
Psychologists, and the National Center for Special Education in 
Charter Schools.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Last, I would like to submit both the letter and written 
testimony from National Disability Rights Network [NDRN]. NDRN 
has been advocating in States to reduce inappropriate use of 
these practices and is a leader in the field.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Thank you, again, to all the witnesses for being here 
today. Today's hearing highlighted the Federal Government's 
important role in setting a minimum standard to protect 
students and school staff. Specifically, we heard how every day 
seclusion and restraint practices undermine school climate and 
put children and adults at risk. We also heard how important it 
is for schools to implement positive protective approaches to 
challenging behaviors so that crisis situations where seclusion 
and restraint are necessary do not occur in the first place.
    Mrs. Smith, your son, Dillon, his picture right there 
reminds me of before I became a high school teacher I worked in 
a daycare and I had a little boy much like Dillon. I just think 
about how many times I had to rock him and how it came to the 
point where my face was the intervention. And I think we really 
have to think about the steps we can take before it gets to the 
point where a child is being restrained, where they only trust 
one adult in the building, and that is the only person who can 
de-escalate that situation for them.
    So I am grateful for you and what you have done and I pray 
that your son is well and that he encounters educators 
throughout his life who will understand his struggles and will 
hear him when he is trying to speak, and will greet him with a 
smile.
    This is the worst committee for me. I know that the 
patchwork State standards have failed to address the need for 
reducing seclusion and restraint, and I trust that my 
colleagues and I will work hard to close those gaps and make 
sure that students who are screaming out for help are met with 
that help and that support.
    Congress has the authority and the responsibility to set a 
minimum floor that strengthens the safety and climate of our 
schools. And investing in the proactive strategies that are 
significantly restricting the use of restraints, eliminating 
the use of seclusion practices, and empowering teachers and 
faculty with proactive evidence based classroom management 
methods, we can ensure that every student learns and grows in a 
safe and healthy school.
    I look forward to working with my colleagues on both sides 
of the aisle to provide our students with the best possible 
learning environment.
    And once again, I thank you all for being here, to all of 
the witnesses for your testimony, and your insight on this 
issue.
    There is no further business. Without objection, the 
committee stands adjourned.
    [Questions submitted for the record and their responses 
follow:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

     [Ms. Sutton's response to questions submitted or the 
record follows:]
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    [Whereupon, at 11:35 a.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
